No. 20-107
IN THE

Supreme Court of the United States
CEDAR POINT NURSERY AND FOWLER PACKING COMPANY, INC.,

v.

Petitioners,

VICTORIA HASSID, IN HER OFFICIAL CAPACITY AS CHAIR OF THE
AGRICULTURAL LABOR RELATIONS BOARD, ET AL.,

Respondents.
PROOF OF SERVICE
I, Rita L. Hemenway of Bateman & Slade, Inc., hereby declare
that on this sixth day of January 2021, I have served three (3) true
copies of the Brief of Amicus Curiae New England Legal Foundation in
Support of Petitioner by priority mail, postage prepaid, addressed as
follows:
Counsel of Record for Petitioners:
Joshua Paul Thompson, Esq.
Pacific Legal Foundation
930 G Street
Sacramento, CA 95814
Counsel of Record for Respondents:
Joshua Patashnik, Esq.
Deputy Solicitor General
California Department of Justice
455 Golden Gate Ave., Suite 11000
San Francisco, CA 94102
Signed under the pains and penalties of perjury,

Rita L. Hemenway
Rita L. Hemenway
NOTARIZED BY:

George D. Bateman

George D. Bateman
My Commission Expires: May 30, 2025

